GR-50-99-006
U.S. DEPARTMENT OF JUSTICE
 
Audit Report
 
Office of Community Oriented Policing Services
Grants to the
Athens Police Department, Athens, Ohio
Award Number: 95-CF-WX-2983
Audit Report Number GR-50-99-006
 
December 21, 1998
 
* * * * *
EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the
grants awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented
Policing Services (COPS), to the Athens Police Department (APD). The APD received grants
of $300,000 to hire or rehire four additional sworn police officers under the Funding
Accelerated for Smaller Towns (FAST) and Universal Hiring Program (UHP). The purpose of
the additional officers was to enhance community policing efforts.
In brief, our audit determined the APD generally used grant funds in accordance with
grant requirements and to enhance the APD's community policing efforts. However, we did
note $928 of unallowable salary expense charged to the grant and that Financial Status
Reports were not always submitted timely.
These items are discussed in the Findings and Recommendations section of the report.
Our scope and methodology appear in Appendix II.
#####